CERTIFICATE OF SERVICE
No.
Vincent Lucas,
Petitioner,
v.
Tricia Moore, Marcia Phelps, Licking County,
Ohio, and The City of Newark, Ohio,
Respondents.
I certify that on June 26, 2021, I served three copies
of the Petition for Writ of Certiorari on each person
listed below by first class U.S. mail, postage prepaid:
Patrick Kasson
200 Civic Center Drive
Suite 800
Columbus, OH 43215
(614) 228-1311
Counsel for Tricia
Moore, Marcia Phelps,
and the City of Newark,
Ohio

Daniel T. Downey
7775 Walton Parkway
Suite 200
New Albany, OH 43054
(614) 221-1216
Counsel for Licking
County, Ohio

I declare under penalty of perjury that the foregoing
is true and correct.
Executed on June 26, 2021

Vincent Lucas

